     ",~.'Ò::'''VICES'ÚS'
    ~
..
~r
~
                                 DEPARTMENT OF
                                 DEPARTMENT OFHEALTH
                                               HEALTH&&HUMAN
                                                       HUMA SERVICES
                                                             SERVICES                                                                                Office
                                                                                                                                                     Office of
                                                                                                                                                            of Inspector
                                                                                                                                                               Inspector General,
                                                                                                                                                                         General,
~
'ó
     ~..
       ~J...Ò'Vcl3a
                                                                                                                                                     Washington, D.C. 20201


                                                                                                      MAR
                                                                                                      MAR11 7  2009
                                                                                                            7 2009




                            TO:
                            TO:        MarciaMarcia
                                              Brand,    Ph.D.
                                                    Brand, Ph.D.
                                                  Acting Administrator
                                                  Health Resources and Services Administration


                            FROM:Daniel
                            FROM: DanielR. Levinson~ 11. ~~
                                             R. Levinson~ 1/. ~~
                                                  Inspector General


                            SUBJECT: Review of of
                                       Review  Health  Resources
                                                  Health Resourcesand
                                                                   andServices
                                                                       ServicesAdministration
                                                                                AdministrationGrant
                                                                                              Grant Closeout
                                                                                                    Closeout
                                       Procedures (A-02-07 -02008)
                                                  (A-02-07-02008)


                                          final report provides the results of
                            The attached final                                of our review of
                                                                                            of the Health
                                                                                                   Health Resources
                                                                                                           Resources and
                                                                                                                       and Services
                                             (HRSA) grant
                            Administration (HRSA)       grant closeout
                                                              closeout procedures.
                                                                        procedures. Pursuant to Federal regulations
                                                                                                          reguations and
                                                                                                                       and policy,
                                      required, as
                            HRSA is required,    as aa general
                                                       general matter, to close grants
                                                                                grants within
                                                                                        withn 180
                                                                                               180 days
                                                                                                   days after
                                                                                                        after the
                                                                                                               the end
                                                                                                                   end of
                                                                                                                       of the grant
                            period (the cutoff
                                        cutoff date).

                            Within
                            Within HRSA,HRSA,
                                          the Divisionthe
                                                        of  Division of Grants              Management
                                                                                Grants Management                 Operations
                                                                                                  Operations (grants office) of 
                       the Office
                                                                                                                                   (grants office) of the    Offce of
                            Federal Assistance
                            Federal       Assistance Management
                                                             Management administers administers mandatory
                                                                                                        mandatory and     andmostmostdiscretionary
                                                                                                                                      discretionar grants,
                                                                                                                                                       grants, and
                                                                                                                                                               and the
                            Bureau of 
 of Health Professions (scholarship office)
                            Bureau                                                                 office) administers
                                                                                                               administers a numbernumber of ofgrant
                                                                                                                                                grant programs,
                                                                                                                                                        programs,
                            including scholarship
                            including        scholarship grants.  grants. The The Administration for Children and Families              Familes (ACF)
                                                                                                                                                   (ACF) assists
                                                                                                                                                           assists the
                            grants office
                            grants      office in in closing
                                                       closing mandatory
                                                                    mandatory and      anddiscretionary
                                                                                              discretionar grants. grants. Within
                                                                                                                                WithinthetheProgram
                                                                                                                                             ProgramSupport
                                                                                                                                                        Support Center,
                                                                                                                                                                  Center,
                            the Division of Financial Operations (DFO) is responsible for recording grant                                    grant activity
                                                                                                                                                     activity on the
                            HRSA
                            HRSA general general ledger,
                                                      ledger, and and    the Division
                                                                  the Division of             of Payment Management (DPM) is responsible for
                            recording grant activity in the Payment Management System (payment                                   (payment system)
                                                                                                                                            system) and closing
                                                receiving closeout instructions from ACF or DFO.
                            grants after receiving                                                                        DFO. For For aa grant
                                                                                                                                          grant to
                                                                                                                                                 to be
                                                                                                                                                    be closed
                                                                                                                                                        closed in the
                            payment system, system, the   the grant
                                                                grant award, expenditure,
                                                                                     expenditue, and      anddrawdoWn
                                                                                                                 drawdoWn amounts amounts must
                                                                                                                                             must bebe equal.
                                                                                                                                                       equal.

                            Our objective was to determine why HRSA grants identified by DPM as as eligible
                                                                                                   eligible for closeout as
                                            2006, were not closed in the payment system by the cutoff
                            of December 31, 2006,                                              cutoff dates.

                            The 3,184 grants identified by D   PM as
                                                             DPM   as eligible
                                                                      eligible for closeout as of December 31, 2006, which had
                                          balances totaling more than $173
                            unexpended balances    totaling more  than  $173 million,
                                                                              millon, were not dosed
                                                                                                dosed in
                                                                                                       inthe
                                                                                                          the payment
                                                                                                              payment system
                                                                                                                      system by
                            the cutoff dates for several reasons:

                                 •.        For 2,831
                                      For 2,831      mandatory
                                                mandatory      and discretionary
                                                          and discretionar       grants,
                                                                           grants,       the grants
                                                                                    the grants      office
                                                                                                office  diddid
                                                                                                            notnotinitiate
                                                                                                                    initiate
                                                      because of a staffing shortage.
                                            closeout because                shortage. Closeout
                                                                                      Closeout of
                                                                                               ofthe
                                                                                                  the remaining
                                                                                                      remaining 70
                                                                                                                 70 mandatory
                                                                                                                    mandatory and
                                            discretionary grants was initiated but not completed
                                                                                       completed primarily
                                                                                                  primarily because
                                                                                                            because of
                                                                                                                     of differences
                                                                                                                        differences
                                                    the grant award, expenditure,
                                            among the                 expenditue, and
                                                                                   anddrawdown
                                                                                       drawdown amounts
                                                                                                  amountsininthe
                                                                                                              the payment
                                                                                                                  payment system.
                                                                                                                            system.
Page 2 – Marcia Brand, Ph.D.


   •       For 243 scholarship grants, the scholarship office did not initiate closeout because it
           had no closeout procedures. Closeout of the remaining 40 scholarship grants was
           initiated but not completed because the grant amounts were not in balance in the
           payment system.

The grants office did not adhere to its written follow-up procedures, and the scholarship office
and DFO had no follow-up procedures, to determine whether DPM had actually closed grants for
which closeout was initiated.

We recommend that HRSA use the information in this report to ensure that grants are closed in a
timely manner and to eliminate the backlog of grants eligible for closeout.

In its comments on our draft report, HRSA described actions that it had taken or planned to take
to implement our recommendation.

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of Inspector General reports
generally are made available to the public to the extent that information in the report is not
subject to exemptions in the Act. Accordingly, this report will be posted on the Internet at
http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me, or your staff may contact Joseph J. Green, Assistant Inspector General for Financial
Management and Regional Operations, at (202) 619-1157 or through e-mail at
Joe.Green@oig.hhs.gov. Please refer to report number A-02-07-02008 in all correspondence.


Attachment
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 REVIEW OF HEALTH RESOURCES
 AND SERVICES ADMINISTRATION
 GRANT CLOSEOUT PROCEDURES




                    Daniel R. Levinson
                     Inspector General

                       March 2009
                      A-02-07-02008
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Two divisions of the Department of Health and Human Services (HHS), Health Resources and
Services Administration (HRSA), are responsible for administering HRSA grants. The Division
of Grants Management Operations (grants office) of the Office of Federal Assistance
Management administers mandatory grants and most discretionary grants. The Bureau of Health
Professions (scholarship office) administers a number of grant programs, including scholarship
grants. These offices are responsible for recording grant activity in the Electronic Handbooks
(grants management system). The HHS Administration for Children and Families (ACF) assists
the grants office in closing mandatory and discretionary grants.

Within the HHS Program Support Center, the Division of Financial Operations (DFO) is
responsible for recording grant activity on the HRSA general ledger, and the Division of
Payment Management (DPM) is responsible for recording grant activity in the Payment
Management System (payment system) and closing grants after receiving closeout instructions
from ACF or DFO.

Pursuant to Federal regulations and policy, HRSA is required, as a general matter, to close grants
within 180 days after the end of the grant period (the cutoff date). For a grant to be closed in the
payment system, the grant award, expenditure, and drawdown amounts must be equal.

OBJECTIVE

Our objective was to determine why HRSA grants identified by DPM as eligible for closeout as
of December 31, 2006, were not closed in the payment system by the cutoff dates.

SUMMARY OF FINDINGS

The 3,184 grants identified by DPM as eligible for closeout as of December 31, 2006, which had
unexpended balances totaling more than $173 million, were not closed in the payment system by
the cutoff dates for several reasons:

   •       For 2,831 mandatory and discretionary grants, the grants office did not initiate
           closeout because of a staffing shortage. Closeout of the remaining 70 mandatory and
           discretionary grants was initiated but not completed primarily because of differences
           among the grant award, expenditure, and drawdown amounts in the payment system.

   •       For 243 scholarship grants, the scholarship office did not initiate closeout because it
           had no closeout procedures. Closeout of the remaining 40 scholarship grants was
           initiated but not completed because the grant amounts were not in balance in the
           payment system.




                                                 i
The grants office did not adhere to its written follow-up procedures, and the scholarship office
and DFO had no follow-up procedures, to determine whether DPM had actually closed grants for
which closeout was initiated.

RECOMMENDATION

We recommend that HRSA use the information in this report to ensure that grants are closed in a
timely manner and to eliminate the backlog of grants eligible for closeout.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS

In its comments on our draft report, HRSA described actions that it had taken or planned to take
to implement our recommendation. HRSA’s comments are included as Appendix B.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                            Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Regulations and Departmental Policies Governing Grant Closeout............1
              Grant Life Cycle ..........................................................................................2
              Grants Office Closeout Process ...................................................................2
              Scholarship Office Closeout Process ...........................................................3
              Division of Financial Operations Closeout Process.....................................3

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................3
               Objective ......................................................................................................3
               Scope............................................................................................................3
               Methodology ................................................................................................4

FINDINGS AND RECOMMENDATION.......................................................................5

          MANDATORY AND DISCRETIONARY GRANTS ...........................................5
              Closeout of Grants Not Initiated ..................................................................5
              Closeout of Grants Initiated but Not Completed .........................................6

          SCHOLARSHIP GRANTS …………….. ..............................................................7
               Closeout of Grants Not Initiated ..................................................................7
               Closeout of Grants Initiated but Not Completed .........................................7

          CONCLUSION........................................................................................................7

          RECOMMENDATION ..........................................................................................8

          HEALTH RESOURCES AND SERVICES ADMINISTRATION
           COMMENTS........................................................................................................8

APPENDIXES

          A – NUMBER OF DAYS THAT GRANTS REMAINED OPEN AFTER
               CUTOFF DATES

          B – HEALTH RESOURCES AND SERVICES ADMINISTRATION
               COMMENTS




                                                                   iii
                                              INTRODUCTION

BACKGROUND

Two divisions of the Department of Health and Human Services (HHS), Health Resources and
Services Administration (HRSA), are responsible for administering HRSA grants. The Division
of Grants Management Operations (grants office) of the Office of Federal Assistance
Management administers mandatory grants 1 and most discretionary grants. 2 The Bureau of
Health Professions (scholarship office) administers a number of grant programs, including
scholarship grants. 3 These offices are responsible for recording grant activity in the Electronic
Handbooks (grants management system). The HHS Administration for Children and Families
(ACF) assists the grants office in closing mandatory and discretionary grants and is responsible
for maintaining all HRSA grant activity in the Grants Administration Tracking and Evaluation
System (GATES).

Within the HHS Program Support Center, the Division of Financial Operations (DFO) is
responsible for recording grant activity on the HRSA general ledger, and the Division of
Payment Management (DPM) is responsible for recording grant activity in the Payment
Management System (payment system) and closing grants after receiving closeout instructions
from ACF or DFO.

Regulations and Departmental Policies Governing Grant Closeout

Pursuant to 45 CFR § 92.50(a), which applies to most HHS grants to State and local
governments, Federal agencies are required to close out the grant award when “all applicable
administrative actions and all required work of the grant has been completed.” Under 45 CFR
§ 92.50(b), grantees are required to submit all financial, performance, and other required reports
within 90 days after the expiration or termination of the grant. The Federal agency may extend
these reporting deadlines upon request. After receiving these reports, the Federal agency must
make all adjustments to allowable costs within 90 days (45 CFR § 92.50(c)). Similar regulatory
requirements at 45 CFR § 74.71 apply to the closeout of HHS grants awarded to nonprofit
organizations. Therefore, HRSA generally must close grants within 180 days after the end of the




1
 Mandatory grants statutorily require a Federal agency to award funds “if the recipient (usually a State) submits an
acceptable State Plan or application and meets the eligibility and compliance requirements of the statutory and
regulatory provisions of the grant program. Mandatory grants include open-ended entitlement grants, closed-ended
grants, and block grants” (HHS Grants Policy Directive (GPD) 1.02). An example of a HRSA mandatory grant
program is the Maternal and Child Health Services program.
2
 Discretionary grants are awarded under programs that permit HRSA, in accordance with legislation, to exercise
judgment in approving the project, project period, budget period, grantee, and award amount (GPD 1.02). An
example of a HRSA discretionary grant program is the Ryan White Title II Grants Program.
3
 Scholarship grants are competitive, often need-based discretionary grants awarded to applicants who are enrolled in
health-professions-related programs. An example of a HRSA scholarship grant program is the National Health
Service Corps Scholarship Program.

                                                          1
grant period (referred to as the “cutoff date” in this report). 4 We recognize that there may be
certain instances in which HRSA, in accordance with regulatory requirements or policy
guidance, may need to take further administrative actions that would prevent the closing of a
specific grant within 180 days.

Grant Life Cycle

At the inception of a grant, the grants office or scholarship office issues a Notice of Grant Award
or Financial Assistance Award to the grantee; establishes the grant award in the grants
management system; and transmits the grant award information through GATES to DFO, which
establishes the grant on the HRSA general ledger. DFO then transmits the grant award
information to DPM, which establishes the grant in the payment system.

The grantee draws down funds from the payment system electronically and reports expenditures
to DPM as well as to the grants office or scholarship office. Regardless of whether the grantee
maintains expenditure data on the cash or accrual basis of accounting, for block grant awards, 5
DPM automatically records expenditures that equal drawdowns when the grantee requests funds.
For non-block-grant awards, the grantee is required to send DPM a quarterly cash-basis report of
expenditures, the PSC-272. Pursuant to 45 CFR §§ 74.71 and 92.50, the grantee also must report
final grant expenditures to the grants office or scholarship office within 90 days after the end of
the grant period so that the grant can be closed.

For a grant to be closed in the payment system, the award, expenditure, and drawdown amounts
must be equal. After receiving a closeout code, DPM’s practice is to leave the grant open for up
to one quarter until it receives the final PSC-272 from the grantee. If the grant award,
expenditure, and drawdown amounts remain in balance after the grantee submits the PSC-272
and if the closeout code is the final transaction on the grant, the grant automatically closes in the
payment system.

Grants Office Closeout Process

According to written procedures for the closeout of grants, 6 the grants office adjusts the grant
award in the grants management system to match the final expenditure data received from the
grantee. If the grants office does not receive the final expenditure data from the grantee, the
grants office adjusts the grant award in the grants management system to match the final

4
 GPD 4.02.B.1.d interprets 45 CFR §§ 92.50 and 74.71 to require that grants generally be closed within 180 days of
the end of the grant support. Although the specific closeout process described in this GPD applies only to
discretionary grants (and the GPD governing mandatory grants has not yet been issued), the 180-day cutoff date
referred to in GPD 4.02.B.1.d is an interpretation of regulations that apply to both mandatory and discretionary
grants.
5
 Block grants are mandatory grants that typically are awarded to States or local governing agencies with minimal
Federal administrative restrictions so that grantees are free to target resources to meet the needs of their citizens
(GPD 1.02). An example of a block grant is the Maternal and Child Health Program.
6
The grants office provided us with written procedures dated September 30, 2007, and titled “Grants Management
Cycle Memo” and told us that the office had followed these procedures since approximately 2003.

                                                           2
expenditure data reported to DPM by the grantee. The grants office then transmits the
adjustment through GATES to DFO and DPM. The grants office also reconciles the grant
activity in the grants management system to the grant activity in the payment system and
resolves any differences by contacting the grantee.

On a quarterly basis, DPM provides the grants office a report listing grants that DPM considers
to be eligible for closeout. The grants office uses this report to create a file of grants to be closed
and submits this file to ACF, which enters the information in GATES. The closeout information
is then electronically submitted to DFO and DPM so that the grants can be closed on the HRSA
general ledger and in the payment system. The grants office determines whether these grants
have been closed in the payment system by examining DPM’s next quarterly report of grants
eligible for closeout. If one of these grants appears on the next quarterly report, the grants office
follows up with DPM to determine why the grant did not close and what actions are needed to
close the grant.

Scholarship Office Closeout Process

As of December 31, 2006, the scholarship office lacked written procedures for closing grants.
Although the scholarship office had procedures to obtain final expenditure data from grantees, it
did not have procedures to close grants on the general ledger or in the payment system.

Division of Financial Operations Closeout Process

DFO does not have written procedures for closing grants. However, on a quarterly basis, DFO
attempts to close grants that DPM has identified as eligible for closeout. To close a grant, DFO
adjusts the grant award on the HRSA general ledger and electronically submits the adjustment to
DPM, which makes the award and expenditures equal in the payment system. Although DFO
does not reconcile the grant activity in the grants management system to the grant activity in the
payment system, it does close the grant on the HRSA general ledger. DFO then electronically
submits a closeout code to DPM so that the grant can be closed in the payment system.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine why HRSA grants identified by DPM as eligible for closeout as
of December 31, 2006, were not closed in the payment system by the cutoff dates.

Scope

Our audit covered 3,184 HRSA grants with unexpended balances totaling $173,965,915 that, as
of December 31, 2006, had not been closed in the payment system by the cutoff dates. 7 We did
not perform an indepth review of the internal control structure of HRSA, ACF, DFO, or DPM.
Instead, we gained an understanding of HRSA, ACF, DFO, and DPM procedures related to grant

7
 Unexpended balances represent the difference between the grant award and expenditure amounts in the payment
system.

                                                       3
closeout. We also did not determine whether grantees had submitted final financial reports to the
grants office or the scholarship office within 90 days after the end of the grant period.

We performed our fieldwork at HRSA and DPM headquarters in Rockville, Maryland.

Methodology

To accomplish our objective, we:

       •    reviewed relevant Federal laws, regulations, and guidance;

       •    gained an understanding of the roles of the grants office, scholarship office, ACF, DFO,
            and DPM in the grant closeout process;

       •    obtained a file of 3,726 HRSA grants with unexpended balances totaling $188,866,448
            that DPM had identified as eligible for closeout as of December 31, 2006;

       •    eliminated from the file:

                o 158 grants that, as of December 31, 2006, had not been open past the cutoff dates,

                o 159 grants that were no longer administered by HRSA, and

                o 206 loans and 19 contracts that were outside the scope of this review;

       •    identified a population of 3,184 grants (2,901 mandatory and discretionary grants and 283
            scholarship grants 8 ) with unexpended balances totaling $173,965,915 that, as of
            December 31, 2006, had not been closed in the payment system by the cutoff dates;

       •    determined how long each of the 3,184 grants remained open in the payment system after
            the cutoff date; and

       •    selected a judgmental sample of 29 of the 2,901 mandatory and discretionary grants,
            representing $68,386,517 (40 percent) of the total unexpended grant balances, to
            determine whether the grants office followed its written procedures for the closeout of
            grants.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.



8
    Our population of grants administered by the scholarship office included only scholarship grants.

                                                            4
                                  FINDINGS AND RECOMMENDATION

The 3,184 grants identified by DPM as eligible for closeout as of December 31, 2006, which had
unexpended balances totaling $173,965,915, were not closed in the payment system by the cutoff
dates for several reasons:

       •        For 2,831 mandatory and discretionary grants, the grants office did not initiate
                closeout because of a staffing shortage. Closeout of the remaining 70 mandatory and
                discretionary grants was initiated but not completed primarily because of differences
                among the grant award, expenditure, and drawdown amounts in the payment system.

       •        For 243 scholarship grants, the scholarship office did not initiate closeout because it
                had no closeout procedures. Closeout of the remaining 40 scholarship grants was
                initiated but not completed because the grant amounts were not in balance in the
                payment system. 9

The grants office did not adhere to its written follow-up procedures, and the scholarship office
and DFO had no follow-up procedures, to determine whether DPM had actually closed grants for
which closeout was initiated.

Appendix A contains details on the number of days that grants remained open after the cutoff
dates.

MANDATORY AND DISCRETIONARY GRANTS

Table 1 shows that closeout of 2,831 of the 2,901 mandatory and discretionary grants
administered by the grants office was not initiated and that closeout of the remaining 70 grants
was initiated but not completed.

                    Table 1: Mandatory and Discretionary Grant Closeout Actions
                                                                     No. of       Unexpended
                             Closeout Action                         Grants         Balance
                  Closeout not initiated                             2,831         $167,035,287
                  Closeout initiated but not completed                  70            2,976,070
                    Total                                            2,901         $170,011,357

Closeout of Grants Not Initiated

Neither the grants office nor DFO initiated closeout of 2,831 mandatory and discretionary grants
with unexpended balances totaling $167,035,287. Grants office officials told us that they did not
initiate closeout because of a staffing shortage, which caused a backlog of grants awaiting
closeout. As of December 31, 2006, the grants had been open for an average of 658 days beyond
the cutoff dates.


9
    We could not determine who initiated closeout of the 40 scholarship grants.

                                                            5
For example, for one sampled grant for which the grant period ended May 31, 2005, the grants
office received the grantee’s final expenditure data but did not adjust the grant award. The
grants office did not reconcile the grant activity in the grants management system to the grant
activity in the payment system. As shown in Table 2, as of December 31, 2006, the grant award,
expenditure, and drawdown amounts in the payment system were not equal.

                   Table 2: Payment System Balances for Sampled Grant
                      Grant Award        Expenditures        Drawdowns
                      $4,786,838.81      $3,096,188.14      $3,096,263.34

Closeout of Grants Initiated but Not Completed

The grants office or DFO initiated closeout of 70 mandatory and discretionary grants with
unexpended balances totaling $2,976,070. However, the grants remained open in the payment
system for an average of 932 days beyond the cutoff dates. Because the grants office did not
adhere to its written follow-up procedures and because DFO had no follow-up procedures, they
did not know whether DPM had actually closed the grants.

   •   DPM did not close 68 grants with unexpended balances totaling $2,976,070 because the
       grant award, expenditure, and drawdown amounts in the payment system were not equal.
       In some cases, the differences were less than $1. As of December 31, 2006, these grants
       had been open in the payment system for an average of 953 days beyond the cutoff dates.

   •   DPM did not close two grants with no unexpended balances because the closeout code
       was not the final transaction in the payment system. As of December 31, 2006, these
       grants had been open in the payment system for an average of 201 days beyond the cutoff
       dates.

For example, for one sampled grant for which the grant period ended March 31, 2004, the grants
office did not receive final expenditure data from the grantee because the grantee no longer had
the grant data on file. Therefore, the grants office did not deobligate the grant award to match
expenditures. DFO initiated closeout on March 3, 2006, even though the grant award,
expenditure, and drawdown amounts in the payment system differed. (See Table 3.) As of
December 31, 2006, the grant had been open in the payment system for 825 days beyond the
cutoff date.

                   Table 3: Payment System Balances for Sampled Grant
                     Grant Award         Expenditures       Drawdowns
                     $14,990,009.00     $14,749,937.95     $14,750,096.70

Subsequent to our review, the grants office deobligated the grant award by $240,071.05 to match
the expenditure data in the payment system. On October 6, 2007, the grant was in balance and
closed in the payment system.




                                               6
SCHOLARSHIP GRANTS

Table 4 shows that closeout of 243 scholarship grants was not initiated and that closeout of the
remaining 40 scholarship grants was initiated but not completed.

                        Table 4: Scholarship Grant Closeout Actions
                                                        No. of        Unexpended
                        Closeout Action                 Grants         Balance
             Closeout not initiated                      243            $3,609,508
             Closeout initiated but not completed         40               345,050
               Total                                     283            $3,954,558

Closeout of Grants Not Initiated

Neither the scholarship office nor DFO initiated closeout of 243 scholarship grants with
unexpended balances totaling $3,609,508. The scholarship office took no action because it
lacked written procedures for closing grants. As of December 31, 2006, the 243 grants had been
open for an average of 634 days beyond the cutoff dates.

Closeout of Grants Initiated but Not Completed

For 40 scholarship grants with unexpended balances totaling $345,050, closeout was initiated.
However, the grants remained open in the payment system beyond the cutoff dates because the
grant award, expenditure, and drawdown amounts were not equal. In some cases, the differences
were less than $1. Because the scholarship office and DFO lacked follow-up procedures, they
did not know whether DPM had actually closed the grants. As of December 31, 2006, the 40
grants had been open in the payment system for an average of 734 days beyond the cutoff dates.

CONCLUSION

For 2,831 mandatory and discretionary grants that were open past the cutoff dates, the grants
office did not initiate closeout because of a staffing shortage. Closeout of an additional 70
mandatory and discretionary grants was initiated but not completed primarily because the grant
balances were not equal in the payment system. Moreover, because the grants office did not
adhere to its written follow-up procedures and because DFO had no follow-up procedures, they
did not know whether DPM had actually closed grants for which closeout was initiated.

For 243 scholarship grants that were open past the cutoff dates, the scholarship office did not
initiate closeout because it had no grant closeout procedures. Closeout of an additional 40
scholarship grants was initiated but not completed because the grant balances were not equal in
the payment system. Moreover, because the scholarship office and DFO lacked follow-up
procedures, they did not know whether DPM had actually closed grants for which closeout was
initiated.




                                                7
RECOMMENDATION

We recommend that HRSA use the information in this report to ensure that grants are closed in a
timely manner and to eliminate the backlog of grants eligible for closeout.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS

In its comments on our draft report, HRSA described actions that it had taken or planned to take
to implement our recommendation. HRSA’s comments are included as Appendix B.




                                                8
APPENDIXES
                                                                                     APPENDIX A


     NUMBER OF DAYS THAT GRANTS REMAINED OPEN AFTER CUTOFF DATES

For the 3,184 grants that should have been closed in the Payment Management System (payment
system), we calculated the number of days that the grants remained open from the cutoff dates
through December 31, 2006.

As shown in Table 1, the 3,074 grants for which closeout was not initiated remained open in the
payment system for an average of 656 days after the cutoff dates.

                       Table 1: Grants for Which Closeout Was Not Initiated
                                                         No. of Grants Open After     Average
                                                             Cutoff Dates for:       No. of Days
                                      Unexpended                             Over      Since
                          No. of        Balance          1–180    181–540      540     Cutoff
       Grant Type         Grants       Per DPM 1         Days       Days     Days      Dates
     Mandatory and
      discretionary        2,831       $167,035,287       110       1,093    1,628       658
     Scholarship             243          3,609,508         0         154       89       634
       Total               3,074       $170,644,795       110       1,247    1,717       656

As shown in Table 2, the 110 grants for which closeout was initiated but not completed remained
open in the payment system for an average of 860 days after the cutoff dates.

                         Table 2: Grants for Which Closeout Was Initiated
                                                         No. of Grants Open After     Average
                                                             Cutoff Dates for:       No. of Days
                                      Unexpended                             Over      Since
                          No. of        Balance          1–180    181–540      540     Cutoff
       Grant Type         Grants       Per DPM           Days       Days     Days      Dates
     Mandatory and
      discretionary          70             $2,976,070     1         8        61         932
     Scholarship             40                345,050     0          7       33         734
       Total                110             $3,321,120     1         15       94         860




1
    DPM = Division of Payment Management.
APPENDIX B
  Page 1 of 2
APPENDIX B
  Page 2 of 2
